OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID/PHILIPPINES’
SUSTAINABLE HEALTH
IMPROVEMENTS THROUGH
EMPOWERMENT AND LOCAL
DEVELOPMENT PROJECT
AUDIT REPORT NO. 5-492-10-001-P
October 9, 2009




MANILA, PHILIPPINES
Office of Inspector General

October 9, 2009

MEMORANDUM

TO:       	          USAID/Philippines Acting Mission Director, Elzadia Washington

FROM: 	              Acting Regional Inspector General/Manila, William S. Murphy /s/

SUBJECT:	            Audit of USAID/Philippines’ Sustainable Health Improvements through
                     Empowerment and Local Development Project (Report No. 5-492-10-001-P)


This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments on the draft audit report and included the comments in their entirety
in appendix II.

The audit report contains three recommendations to assist the mission in improving the data
quality of the performance indicators and reported results of the Sustainable Health
Improvements through Empowerment and Local Development Project in the Autonomous
Region of Muslim Mindanao. On the basis of information provided by the mission in response to
the draft report, we determined that final action has been taken on recommendation 2 and
management decisions have been reached on recommendations 1 and 3. A determination of
final action will be made by the Audit Performance and Compliance Division upon completion of
the planned corrective actions for recommendations 1 and 3.

I want to thank you and your staff for the cooperation and courtesy extended to us during the
audit.




U.S. Agency for International Development
                        th
PNB Financial Center, 8 Floor
Roxas Blvd, 1308 Pasay City
Metro Manila, Philippines
www.usaid.gov
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 3 


Audit Objective .................................................................................................................. 4 


Audit Findings ................................................................................................................. 5 


Was USAID/Philippines’ Sustainable Health Improvements 

through Empowerment and Local Development Project
achieving planned results, and what has been the impact?

     Management of Performance
     Data Needs to be Improved ........................................................................................ 7 


Evaluation of Management Comments ....................................................................... 11 


Appendix I – Scope and Methodology ........................................................................ 12 


Appendix II – Management Comments ....................................................................... 14 


Appendix III –Selected Performance Indicators and 

Reported Results for Fiscal Years 2007 and 2008 .................................................... 17 

SUMMARY OF RESULTS

The Autonomous Region of Muslim Mindanao (the autonomous region), home to 4.1
million Filipinos, is widely recognized to have the poorest health and development
indicators among the country’s 16 regions. It also has one of the highest fertility rates in
the country, the highest proportion of women with unmet needs for family planning, and
the lowest rate of contraceptive use. Recognizing that development needs are greatest
in the conflict-affected autonomous region, USAID/Philippines’ strategic objectives
emphasize assistance in this region. In September 2006, the mission awarded a 5-year,
$15 million cooperative agreement to a consortium led by Helen Keller International,
along with ACDI/VOCA, Christian Children’s Fund, and Save the Children, to implement
the Sustainable Health Improvements through Empowerment and Local Development
Project in the autonomous region. The award was subsequently increased to $15.2
million in 2007. As of September 30, 2008, USAID/Philippines had obligated $7.9 million
and disbursed $3.9 million. The overall objective of the project is to achieve sustainable
improvement of family health in communities in the autonomous region (see page 3).

The audit reviewed results for the first 2 years of the project and concluded that, in
general, planned results were not being achieved or, in some cases, data to support the
reported results either were unavailable or were flawed. For example, for fiscal year
2008, the second year of the project, the audit determined that planned results were
achieved for only 3 of the 11 performance indicators selected for review. For instance,
records showed that the project trained 576 individuals in child health and nutrition
issues, greatly exceeding the project’s target of training 380 individuals. As for the other
eight indicators, planned results were not achieved for three indicators, performance
data were not even available for three other indicators, and data underlying the reported
achievements for two indicators were flawed. For one of these two indicators, the
number of deliveries assisted by skilled birth attendants, the reported results could not
be directly attributed to project interventions; for the other indicator, the number of
counseling visits made, the reported results were based on assumptions in lieu of actual
data (see page 5).

For fiscal year 2007, the first year of the project, it was even less clear that planned
results were being achieved because there was no documentation available to support
reported results for five of six indicators being used to measure results for that year. For
example, the project planned to make 42,912 visits to counsel individuals on family
planning and reproductive health issues; although the project reported that 10,399 visits
were made, there was no supporting documentation to substantiate the reported
achievements. As another example, the project planned that 28,482 deliveries would be
assisted by skilled birth attendants; 27,444 such deliveries were reported as achieved,
but there was no supporting documentation to confirm that number. As for the indicator
that had supporting documentation, the audit determined that the project did not meet
planned results for that indicator (see page 5).

At the time of audit, only 2 years of the project’s 5-year life had been completed. As a
result, it is premature to evaluate the project impact. For instance, it is much too early to
measure changes in the proportion of women with unmet needs for family planning or
changes in the use of contraceptives. While there is some evidence that the project may
be laying the groundwork for improvements in family health, the deficient reporting of

                                                                                           1
data during the first 2 years of the project needs to be addressed to ensure that the
project is on track (see pages 5 and 6).

The audit identified areas where the mission could improve the management of the
performance data reported and strengthen the project’s performance management
system (see pages 6-10).

The report recommends that USAID/Philippines:

   •	 Develop and implement procedures that require the agreement officer’s technical
      representative to review and update the project’s performance management plan
      on an annual or semiannual basis to ensure that it contributes to an effective
      system of measuring progress toward intended objectives (see page 10).

   •	 Provide written guidance to its implementers as to what constitutes “training” for
      purposes of reporting project performance (see page 10).

   •	 Develop and implement procedures that require the agreement officer’s technical
      representative to periodically conduct an independent review of the performance
      data submitted by implementers (see page 10).

On the basis of an evaluation of the mission’s response to the draft report, the audit
determined that final action has been taken on recommendation 2, while management
decisions have been reached on recommendations 1 and 3 (see page 11).

The mission’s written comments on the draft report are included in their entirety, without
attachments, as appendix II to this report (see pages 14–16).




                                                                                        2
BACKGROUND

The Autonomous Region of Muslim Mindanao (the autonomous region), home to 4.1
million Filipinos, is widely recognized to have the poorest health and development
indicators among the country’s 16 regions. It also has one of the highest fertility rates in
the country, the highest proportion of women with unmet needs for family planning, and
the lowest rate of contraceptive use. These indicators, worsened by extreme poverty,
directly influence the very high rates of infant and under-five mortality. The region also
has high rates of tuberculosis and malaria.

Recognizing that development needs are greatest in this conflict-affected autonomous
region, USAID/Philippines’ strategic objectives emphasize assistance in the region. In
September 2006, the mission awarded a 5-year, $15 million cooperative agreement to a
consortium led by Helen Keller International, along with ACDI/VOCA, Christian
Children’s Fund, and Save the Children, to implement the Sustainable Health
Improvements through Empowerment and Local Development Project in the
Autonomous Region of Muslim Mindanao (the Sustainable Health Project). The award
was subsequently increased to $15.2 million in 2007.

In response to the autonomous region’s unique political and cultural environment, the
Sustainable Health Project partnered with the region’s Department of Health, provincial
and municipal health offices, local government officials, and nongovernmental and
community organizations to address the region’s health issues. The Sustainable Health
Project was designed to be implemented in the context of the Philippine Government’s
Sector Development Agenda for Health.

The overall objective of the Sustainable Health Project is to achieve sustainable
improvement of family health in communities in the autonomous region. The project
aims to achieve this by implementing a program of activities that establish effective
partnerships and stronger links between three components:

   •	 Community partnership component – designed to empower, mobilize, and
      organize communities to adopt and practice optimal health behaviors;

   •	 Health systems component – designed to strengthen health service providers
      through capacity building to enhance community participation in health service
      delivery; and

   •	 Local government unit support component – designed to empower local
      governments to respond effectively to the health needs and demands of their
      constituencies through increased support to health service delivery systems and
      community health initiatives.

Within the health systems component, the project further focused on six health program
intervention areas: (1) maternal and child health, (2) family planning, (3) tuberculosis
control and prevention, (4) malaria control and prevention, (5) HIV/AIDS prevention and
control, and (6) avian influenza prevention and control. This audit focused on the two
most significant health interventions—maternal and child health and family planning


                                                                                          3
interventions, which received 81 percent of the total project obligations through
September 30, 2008.

By that same date, USAID had obligated $7.9 million and disbursed $3.9 million for the
Sustainable Health Project’s activities. USAID/Philippines’ Office of Population, Health
and Nutrition is responsible for managing the project.



AUDIT OBJECTIVE
The Regional Inspector General/Manila conducted this audit as part of its fiscal year
2009 plan to answer the following question:

   •	 Was    USAID/Philippines’ Sustainable Health    Improvements    through
      Empowerment and Local Development Project achieving planned results, and
      what has been the impact?

Appendix I contains a discussion of the audit scope and methodology.




                                                                                      4
AUDIT FINDINGS

The audit reviewed results for the first 2 years of the project and concluded that, in
general, planned results were not being achieved or, in some cases, data to support the
reported results either were unavailable or were flawed.

For fiscal year 2008, the second year of the project, the audit determined that planned
results were achieved for only 3 of the 11 performance indicators selected for review.
For instance, records showed that the project trained 576 individuals in child health and
nutrition issues—greatly exceeding the project’s target of training 380 individuals.
Records also showed that the project assisted five provinces and one city with
developing health and nutrition plans for maternal and child health and nutrition, meeting
the project’s target for that year.

As for the other eight indicators, planned results were not achieved for three indicators,
performance data were not available for three other indicators, and data underlying the
reported achievements for two indicators were flawed. For example, the project
intended to train 200 people in maternal and newborn heath issues, but records
indicated that only 91 were trained. Additionally, the project planned to assist 36
municipalities in setting up functional local health boards in fiscal year 2008, but records
showed that only 9 were established. Furthermore, the audit could not confirm that
36,963 of the 44,831 planned deliveries assisted by skilled birth attendants were
achieved because the data underlying the reported achievements were flawed and could
not be directly attributed to project interventions. In addition, records showed that results
reported for the indicator measuring the number of visits made for family planning and
reproductive health counseling were based on assumptions in lieu of actual data.

For fiscal year 2007, the first year of the project, it was even less clear that planned
results were being achieved because there was no documentation available to support
reported results for five of six indicators being used to measure results for that year. For
instance, the project planned to assist six municipalities in setting up functional local
health boards; however, according to supporting documentation only two were
established. The project also planned to make 42,912 visits to counsel individuals on
family planning and reproductive health issues; although the project reported that 10,399
visits were made, there was no supporting documentation to substantiate the reported
achievements. As another example, the project planned that 28,482 deliveries would be
assisted by skilled birth attendants; although 27,444 such deliveries were reported as
achieved, there was no supporting documentation to confirm that number. As for the
indicator that had supporting documentation—the number of municipalities assisted by
the project in setting up functional local health boards—the audit determined that the
project did not meet planned results for that indicator.

The selected performance indicators, targets, reported results, and audited results are
provided in appendix III.

With regard to project impact, only 2 years of the project’s 5-year life had been
completed at the time of audit; therefore, it is premature to evaluate the impact. For
instance, it is much too early to measure changes in the proportion of women with unmet
needs for family planning or changes in the use of contraceptives. However, it appears


                                                                                           5
that the project is laying the groundwork for regional improvements in family health. For
example, the project provided technical assistance to the autonomous region’s health
department in drafting a 5-year health investment plan. This plan provides direction and
identifies the priorities for attaining better health services and health outcomes in the
region for years 2007 to 2011.

Additionally, the project provided assistance in developing 2-year annual operational
plans for provincial health units. These plans consisted of annual activities and budget
and annual goals to aid provincial health units in implementing the health investment
plan. Furthermore, the project provided training in areas such as caring for mothers and
newborns, and family planning and reproductive health. Health service providers
interviewed also reported that the project’s training courses improved their skills.
Moreover, the community-based health organizations were assisting health workers in
the provision of health services and in increasing health awareness in the community.




           Rural Health Unit located in the Municipality of Balindong, 

           Lanao del Sur. Health service providers in this unit were trained by the 

           Sustainable Health Project. (Photo by OIG staff, October 2008) 


Nevertheless, the deficient reporting of results data during the first 2 years of the project
needs to be addressed to ensure the project is on track. The following section discusses
areas where the mission could improve its management of performance data and
strengthen the project’s performance management system for the remaining years of the
project.




                                                                                           6
Management of Performance
Data Needs to Be Improved

Summary: USAID’s Automated Directives System (ADS) 203.3.5.1 states that to be
useful in managing for results and credible for reporting, operating units should ensure
that performance data in the mission’s performance management plan meet certain data
quality standards. Also, USAID guidance includes requirements that the agreement
officer’s technical representatives ensure the accuracy of reported data. However, data
for some of the Sustainable Health Project’s performance indicators fell short in several
ways with regard to meeting the standards of validity, integrity, precision, and reliability.
These standards were not met, in part, because the mission did not independently
review reported data and did not maximize the use of its performance management plan.
Inconsistent, imprecise, and inaccurate data hindered the mission’s ability to gauge the
progress of this project.

According to USAID’s ADS 203.3.5.1, to be useful in managing for results and credible
for reporting, operating units should ensure that the performance data in the mission’s
performance management plan meet data quality standards, such as validity, integrity,
precision and reliability. To meet the standard of validity, performance data should
clearly and adequately represent the intended result. To meet the integrity standard,
data that are collected, analyzed, and reported should have established mechanisms in
place to reduce the possibility that data might be intentionally manipulated. The
precision standard requires that data be sufficiently precise to present a fair picture of
performance and enable decision-making. The reliability standard requires that data
reflect stable and consistent data collection methods over time and that operating units
be confident that progress toward performance targets reflects real changes rather than
variations in data collection methods.

Additionally, according to USAID’s Guidebook for Managers and Cognizant Technical
Officers on Acquisition and Assistance, the agreement officer’s technical
representatives1 are responsible for ensuring the accuracy of all reports submitted by
their implementers.

However, data for some of the Sustainable Health Project’s performance indicators fell
short of meeting data quality standards in several ways. Below are examples where
data quality standards were not met.

The following are examples of performance data lacking validity:

    •	 The project could not quantify the degree to which its project interventions had
       contributed to increasing the number of deliveries assisted by skilled birth
       attendants. For example, in fiscal year 2008, the project reported that skilled
       birth attendants assisted in 36,963 live-birth deliveries (see indicator no. 3 in
       appendix III). The reported result was obtained from the autonomous region’s
       Department of Health information system. These figures assumed that the total
       increase in the number of recorded live births attended by skilled birth attendants


1
  In January 2009, USAID’s guidance replaced the term “cognizant technical officer” with
“agreement officer’s technical representative,” for use in grants and cooperative agreements.


                                                                                           7
   (medical doctors, nurses, and midwives) were influenced by interventions
   supported by the project alone. However, because the government’s information
   system collects regionwide (non-project specific) information, the project’s direct
   contribution could not be quantified. Furthermore, neither the implementer nor
   the mission could quantify the project’s contribution to the reported figures.
   Therefore, the data reported did not clearly and adequately represent the
   intended result, and therefore they lack validity.

•	 The project did not use and apply a consistent definition of training in collecting
   and reporting data for its performance indicators. For example, in the project’s
   performance management plan, training was defined as new training or re-
   training of individuals with specific learning objectives, a course outline or
   curriculum, and expected knowledge, skills, and/or competencies to be gained by
   the participants. However, the audit identified that for two training indicators, the
   reported results included participants that attended general orientation courses
   only (see indicator nos. 2 and 5 in appendix III). While these courses may have
   included some discussions on child health and nutrition or family planning and
   reproductive health matters, they were more general in nature and were intended
   to give the attendees merely an overview of the project or the subject. Therefore,
   the data reported did not clearly and adequately represent the intended result,
   thus not meeting the standard of validity.

The following is an example of performance data lacking integrity:

•	 The figures reported for some performance indicators were not sufficiently
   supported. For example, the implementer reported that 522 people had been
   trained in one province in child health and nutrition subject areas. (The number
   relates to indicator no. 2 in appendix III.) Neither the provincial office nor the
   main office could produce sufficient documentation to support this figure. In fact,
   supporting documentation maintained by the provincial office showed that only
   397 people were trained, while the main office did not have documentation to
   support any figure. This occurred because the primary implementer did not
   institute sufficient reporting controls for data coming from the provincial level. For
   example, many of the figures were obtained through phone calls from the
   provincial offices, but no subsequent supporting documentation followed. Since
   there was no established mechanism for data collecting and reporting, it was
   possible that the data could have been compromised or manipulated, thereby
   losing its integrity.

The following is an example of performance data lacking precision:

•	 Figures reported for one indicator were obtained by using assumptions and
   estimates because actual data were not available. For instance, in fiscal year 2008,
   it was reported that 92,412 counseling visits were made by trained health service
   providers to counsel individuals on family planning/reproductive health issues (see
   indicator no. 6 in appendix III). The indicator defined counseling visits as one-on-
   one sessions or sessions with a small group (2–10 people). Since the health
   service providers did not maintain documentation on the number of counseling
   visits made, the implementer decided to estimate the figure by extrapolating the
   reported number of health service providers trained in family planning and
   reproductive health issues and assuming that over a 12-month period each


                                                                                       8
       trained individual counseled three individuals in these issues each month.
       However, even the underlying data—the number of health service providers
       trained—used for this extrapolation was flawed because the data included
       individuals who attended courses that did not meet the definition of training (see
       first bullet on page 8). Moreover, the calculation method used was not approved
       by the mission. Therefore, the reported results could not be relied upon because
       they did not present a fair and accurate picture of the actual performance and
       were not sufficiently precise, and therefore did not meet the data quality standard
       of precision.

   The following is an example of performance data lacking reliability:

   •	 The project lacked consistency in its data collection and analysis methods. For
      example, for reporting the number of individuals trained in child health and nutrition
      issues, participants were counted either once or multiple times depending on the
      data collection method (these data collection inconsistencies relate to indicator no.
      2 in appendix III). For instance, in one location, implementers submitted one report
      for a 2-day training course, thereby counting a participant one time for attending
      the 2-day training course. At the same time, implementers in another location
      submitted two separate reports for the same 2-day training course, thereby
      counting a participant twice for attending the 2-day training course. Therefore, the
      reported results of 1,884 participants trained in child health and nutrition did not
      actually represent 1,884 separate individuals that completed a particular set
      curriculum of training courses for child health and nutrition. This data collection
      method lacked stability and consistency, thereby weakening the reliability of the
      reported results.

The above instances occurred, in part, because the mission did not independently
review reported data and the mission did not maximize the use of its performance
management plan. The mission did not independently review the accuracy of the data
reported by the implementer because, according to the agreement officer’s technical
representative, data quality was reviewed by a technical working group created by the
USAID/Philippines Office of Health. The group was composed of representatives from
the mission and the various implementers carrying out health activities for the purpose of
discussing and harmonizing performance management practices. While there was
evidence that this group reviewed the indicators, definitions, and targets, the mission is
ultimately responsible for ensuring the accuracy of all reported data. The mission could
benefit greatly from conducting periodic independent reviews of the reported
performance data to better ensure their accuracy.

In addition, the mission did not maximize the use of its performance management plan,
which is a critical tool for planning, managing, and documenting data collection. This
occurred because the mission had not approved the performance management plan
during the project’s first 2 years of implementation. According to the mission, the plan
was not approved because it was still a “work in progress.” The mission explained that
targets for some of the fiscal years 2007 and 2008 indicators would be subject to change
after baseline data collection was completed. Also, the indicators needed to be
simplified and revised to conform to USAID/Washington definitions. Additionally, the
number of indicators in the plan needed to be reduced to better capture the direct impact
of the project’s activities. As a result, several performance indicators were not precisely
defined and indicators lacked baselines and targets. Furthermore, confusion existed


                                                                                          9
because the definition of training included in the performance management plan was not
the same as what was widely used for reporting training data.

Inconsistent, imprecise, and inaccurate data and an unapproved performance
management plan hindered the mission’s ability to gauge the progress of this project.
However, in February 2009, in response to the audit’s findings, the implementers
submitted an updated performance management plan to address issues on data quality.
The mission approved this plan on March 3, 2009, with the condition that it include any
additional requirements (e.g., revision of indicators, data quality assessment, and data
collection tools) to be imposed by the technical working group. The approved plan also
included measures, such as revised internal data reporting forms, a list of project-
supported training to be included in the training indicator, and standard training reports
for the provincial offices—all aimed at bringing about consistent, accurate, and verifiable
results.

However, to ensure that the project’s performance management plan contributes to the
effectiveness of the performance management system, this audit is making a
recommendation to ensure the mission maximizes the use of this plan going forward.
Additionally, because there is still a need to harmonize the definitions of “training” for
purposes of reporting performance and to ensure that performance data submitted by
the implementers are independently reviewed by the mission to ensure accuracy, this
audit makes the following recommendations.

   Recommendation No. 1: We recommend that USAID/Philippines develop and
   implement procedures that require the agreement officer’s technical
   representative to review the Sustainable Health Improvements through
   Empowerment and Local Development Project in the Autonomous Region of
   Muslim Mindanao’s performance management plan on an annual or semiannual
   basis to ensure that it contributes to an effective system of measuring progress
   toward intended objectives.

   Recommendation No. 2: We recommend that USAID/Philippines provide written
   guidance to its implementers as to what constitutes “training” for purposes of
   reporting project performance.

   Recommendation No. 3: We recommend that USAID/Philippines develop and
   implement procedures that require its agreement officer’s technical
   representative to periodically conduct an independent review of the performance
   data submitted by implementers.




                                                                                        10
EVALUATION OF
MANAGEMENT COMMENTS
In response to the draft report, USAID/Philippines concurred with all three
recommendations.

On the basis of an evaluation of the mission’s response to the draft report, this audit
determined that final action has been taken on recommendation 2, while
management decisions have been reached on recommendations 1 and 3.

In response to recommendation no. 1, the mission stated that it has addressed the
issue of regularly reviewing and updating the project’s performance monitoring plan
in the Office of Health’s Monitoring and Evaluation Manual that is currently being
developed. The mission expects to finalize this manual by November 30, 2009. As a
result, a management decision has been reached on this recommendation.

In response to recommendation no. 2, the mission revised its mission order to further
explain the definition of participant training. The mission order clearly states what
“training” should contain including background/rationale, learning objectives,
expected knowledge, skills and/or competencies to be gained by participants, a
course outline or curriculum as appropriate. On the basis of the management
comments and the supporting documentation provided, we consider that final action
has been taken on this recommendation.

In response to recommendation no. 3, the mission stated that the conduct of a
periodic and independent review of the performance data submitted by the
implementers is also being addressed by the Office of Health’s Monitoring and
Evaluation Manual that is currently being developed. As stated above, the mission
expects to finalize this manual by November 30, 2009.           Consequently, a
management decision has been reached on recommendation no. 3.

The mission's written comments on the draft report are included in their entirety,
without attachments, as appendix II to this report.




                                                                                          11
                                                                              APPENDIX I 




SCOPE AND METHODOLOGY

Scope
The Regional Inspector General/Manila conducted this audit in accordance with
generally accepted Government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective, which was to determine whether
USAID/Philippines’ Sustainable Health Improvements through Empowerment and Local
Development Project in the Autonomous Region of Muslim Mindanao was achieving
planned results, and what the impact has been.

The audit covered results achieved in each of the three project components—community
partnership, health systems, and local government unit support. For the health systems
component, the audit focused on two of the six health project interventions—family
planning and maternal and child health. Funding data showed that of the $7.9 million
obligated as September 30, 2008, $5.05 million or 64 percent was obligated for family
planning project interventions and $1.3 million or 17 percent was obligated for maternal
and child health project interventions. Audit fieldwork was conducted from October 14,
2008, through February 24, 2009, in the offices of USAID/Philippines and project offices in
Manila, Iligan City, Cotabato City, and Zamboanga City. Visits were conducted to four
activity sites in Lanao del Sur and Iligan City. In addition, the audit reviewed an updated
performance management plan submitted by the implementers in February 2009 and
approved by the mission in March 2009.

In conducting this audit, we reviewed and assessed the significant internal controls
developed and implemented by the mission to manage and monitor the activities. The
assessment included internal controls related to whether the mission (1) reviewed
progress and financial reports submitted by the implementers, (2) conducted and
documented periodic meetings with the implementers, (3) performed and documented
visits to the activity sites, and (4) developed and implemented policies and procedures to
safeguard the assets and resources of the activities. Further, we determined whether the
mission prepared an assessment of its internal controls and reported it in its Federal
Managers’ Financial Integrity Act report for fiscal year 2008.


Methodology
To answer the first part of the audit objective on achieving planned results, we
judgmentally selected 11 of 125 performance indicators that we and the mission
regarded as key to assessing the project’s progress. However, of the 11 selected
indicators, only 6 were in use during the first year of the project; the other 5 either were
added in the second year or activities related to the indicators were initiated only in the
second year of the project. We also selected indicators from each of the three program
components but limited our selection of indicators for one component—the health
systems component—to indicators pertaining to family planning and maternal and child


                                                                                         12
health interventions only. We also reviewed the accomplishments reported during the
defined audit period and evaluated the accuracy, appropriateness, and sufficiency of the
documentation supporting the reported progress data.

To answer the second part of the audit objective on the impact of the project, we
obtained the views of the project recipients, such as the community health service
providers, community-based health workers, local government officials, and community
members. Specifically, we met with the region’s Department of Health key officers,
officials of the Lanao del Sur Integrated Provincial Health Office, and the staff of the
Balindong Municipal Health Office. We visited a training venue and observed training
and interviewed responsible training facilitators and training participants. We also met
with officers of the community-based health organization in Lalabuan, Balindong, Lanao
del Sur and interviewed a community member from Wao Municipality in Lanao del Sur.

Additionally, we interviewed responsible officials and staff from USAID/Philippines,
Helen Keller International, Save the Children, ACDI/VOCA, and the Christian Children’s
Fund. Furthermore, we reviewed and analyzed relevant documents at both the mission
and the implementing partners’ offices. This documentation included award instruments
including applicable modifications, such as the cooperative agreement between
USAID/Philippines and Helen Keller International and the subagreements awarded by
Helen Keller International to the subimplementers; performance management plans;
annual work plans; progress and financial reports; and the mission’s Federal Managers’
Financial Integrity Act report for fiscal year 2008.




                                                                                     13
                                                                             APPENDIX II 




MANAGEMENT COMMENTS



                                                    September 28, 2009

MEMORANDUM

TO:                   Bruce N. Boyer, Regional Inspector General

                      (original signed by EWashington)
FROM:                 Elzadia Washington, Acting Mission Director

SUBJECT:              Audit of USAID/Philippines’ Sustainable Health Improvements
                      through Empowerment and Local Development Project (Report
                      No. 5-492-09-00X-P)

REFERENCE:            Audit Report No. 5-492-09-00X-P, received on September 8, 2009

USAID/Philippines wishes to thank the Regional Inspector General for the professional
and constructive manner in which this audit was performed. The Mission agrees that
implementation of the audit recommendations will help in improving the efficiency and
effectiveness of the Mission’s health activities as well as the Mission’s operations.

For recommendations 1 and 3, a management decision has been reached and a concrete
plan has been made. We request RIG/Manila to concur that a management decision has
been reached on these two recommendations. For recommendation 2, a Mission Order
has been revised thus, we request RIG/Manila to close this recommendation upon
issuance of the final audit report.

Recommendation No. 1: Develop and implement procedures that require the
agreement officer’s technical representative to review and update the project’s
performance monitoring plan on an annual or semi-annual basis to ensure that it
contributes to an effective system of measuring progress towards intended objectives.

USAID/Philippines concurs with this recommendation and has made a Management
Decision that the Agreement Officer’s Technical Representative must regularly review
and update the project’s performance monitoring plan (PMP). This has been clearly
delineated in the Office of Health/SO3 Monitoring and Evaluation Manual that was
jointly developed with USAID/OH’s grantees and contractors.

Although the manual is still being finalized, the part discussing the Agreement Officer’s

                                                                                        14

Technical Representative or Contracting Officer’s Technical Representative’s (A/COTR)
responsibility for regular monitoring and evaluation of the project has been drafted. This
includes the regular reviewing and updating of the PMP, on an annual and semi-annual
basis. In addition, the manual also clearly establishes that the A/COTR shall conduct an
independent monitoring and data quality checks to verify the data submitted by the
project implementers.

We expect to finalize the SO3 Monitoring and Evaluation Manual on November 30,
2009.

Based on this management decision, the Mission requests RIG/Manila’s concurrence that
a management decision has been reached to resolve the recommendation.

Recommendation No. 2: Provide written guidance to its implementers as to what
constitutes “training” for purposes of reporting project performance.

USAID/Philippines concurs with this recommendation. On May 18, 2009, the Mission
revised Mission Order 253 to further explain the definition of participant training
(attached: copy of Mission Order 253). In relation to this, on May 19, 2009, the Office of
Regional Procurement issued ORP Notice No. 09-006 to USAID/Philippines’ contractors
and grantees (attached).

The Mission Order provides guidance to Mission staff and implementers as to what
constitutes training. Further, the Mission Order clearly states what “training” should
contain including background/rationale, learning objectives, expected knowledge, skills
and/or competencies to be gained by participants, a course outline or curriculum, as
appropriate.

The said Mission Order was discussed with the Office of Health project implementers
where it was agreed that only training that meets the parameters set forth in the Mission
Order shall be reported as “training” in the Operational Plan (reported to Washington)
and project performance reports.

Based on the action taken, the Mission requests that this recommendation be closed upon
issuance of the final audit report.

Recommendation No. 3 Develop and implement procedures that require its agreement
officer’s technical representative to periodically conduct an independent review of the
performance data submitted by implementers

As stated in the response to Recommendation No. 1, the Mission has provided clear
guidance to the AOTR as delineated in the SO3 Monitoring and Evaluation Manual that
the AOTR shall conduct periodic reviews to verify the performance data submitted by the
implementers.

Based on this management decision and plan to address this recommendation, the



                                                                                        15
Mission requests RIG/Manila’s concurrence that a management decision has been
reached and a concrete plan to resolve the recommendation is underway.




                                                                                16
                                                                                        APPENDIX III


           SELECTED PERFORMANCE INDICATORS and REPORTED RESULTS 

                        for FISCAL YEARS 2007 and 2008 



                                             Fiscal Year 20072



                                                                  Reported    Audited       Target
    No.           Performance Indicator                 Target
                                                                   Results    Results        Met

          Number/Proportion of deliveries assisted by                           No            No
    1        skilled birth attendants through U.S.      28,482     27,444    supporting    supporting
               Government-assisted programs                                  documents     documents

            Number of counseling visits for family                              No            No
    2     planning/reproductive health as a result of   42,912     10,399    supporting    supporting
                U.S. Government assistance                                   documents     documents

           Number of municipalities with functional
    3                                                     6          2           2          Not met
                    local health boards

                                                                                No            No
           Number of health workers paid per local
    4                                                   None        253      supporting    supporting
                      government unit
                                                                             documents     documents
          Number of barangays (neighborhoods) with                              No            No
    5       additional midwives hired by the local      None         99      supporting    supporting
                       government unit                                       documents     documents
            Total amount or percentage of internal
    6      revenue allotment actually disbursed per     None        None      No data       No data
                    local government unit




2
  Of the 11 performance indicators selected for review, only 6 were in use during the first year of
the project. The other five either were added in the second year or activities related to the
indicators were initiated only in the second year of the project. Therefore, our review covered
only six indicators for fiscal year 2007.

                                                                                                      17
                                                                                           APPENDIX III



                                              Fiscal Year 2008

                                                                    Reported     Audited        Target
    No.            Performance Indicator                   Target
                                                                     Results     Results         Met

1         Number of people trained in
          maternal/newborn health through U.S.              200        91           100        Not met
          Government-supported programs

2         Number of people trained in child health and
                                                                             3
          nutrition (including breastfeeding) through       380      1,884          5764         Met
          U.S. Government-supported programs

3         Number/proportion of deliveries assisted by                            Could not     Could not
                                                                                           5
          skilled birth attendants through U.S.            44,831    36,963      determine     determine
          Government-assisted programs

4         Number of provinces/cities with maternal
          newborn child health and nutrition plans as        6         6             6           Met
          part of annual operational plans

5         Number of people trained in family
          planning/reproductive health with U.S.            195      2,5676         2157         Met
          Government funds
          Number of counseling visits for family
                                                                                 Could not     Could not
6         planning/reproductive health as a result of                                      8
                                                           88,305    92,412      determine     determine
          U.S. Government assistance

7         Number of community-based health
                                                                             9
          organization members trained in family            135      1,850           010       Not met
          planning (Level 1 and 2)
          Number of municipalities with functional local
8                                                            36        9             9         Not met
          health boards




3
   Reported figure is overstated due to inconsistent data collection methods.
4
  Auditor included training courses on maternal and child health only and excluded overview and
orientation sessions.
5
   The project reported 36,963 from the Department of Health’s information system, which
included all deliveries in the autonomous region attended by skilled birth attendants. While the
audit was able to verify this figure, neither the auditors nor the implementers could identify the
number directly attributable to the project’s interventions.
6
   The reported figure included participants that attended overview and orientation sessions that
did not meet the definition of training.
7
   Auditor included training courses on family planning/reproductive health only and excluded
overview and orientation sessions.
8
  Auditor could not determine because reported figure was based on estimates and assumptions
and flawed data were used in the calculation.
9
  The reported results included number of community-based health organization members trained
at level 1 only. Indicator calls for number of members trained at levels 1 and 2. Additionally, the
reported figure included participants that attended overview and orientation sessions that did not
meet the definition of training.
10
    Auditor did not accept reported results because the data reported was incomplete and
inaccurate. (Refer to footnote number 9.)


                                                                                                       18
                                                                                     APPENDIX III 



                                                              Reported       Audited       Target
No.            Performance Indicator               Target
                                                               Results       Results        Met

                                                      0           0              0        No target
      Number of health workers paid per local
9                                                                                          set; no
      government unit
                                                                                            data
                                                                                          available

      Number of barangays (neighborhoods) with                                            No target
10    additional midwives hired by the local          0           0              0         set; no
      government unit                                                                       data
                                                                                          available

      Total amount or percentage of internal                                              No target
11    revenue allotment actually disbursed per        0           0              0         set; no
      local government unit                                                                 data
                                                                                          available
Note: Targets were not set for indicators 9, 10, and 11 for fiscal year 2008 due to the lack of
baseline data.




                                                                                                  19
U.S. Agency for International Development 

        Office of Inspector General 

        1300 Pennsylvania Ave, NW 

          Washington, DC 20523 

             Tel: 202-712-1150 

             Fax: 202-216-3047 

            www.usaid.gov/oig

                                              20
